Report No. DODIG-2012-066                  March 26, 2012




     General Fund Enterprise Business System Did Not
         Provide Required Financial Information
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AGF                   Army General Fund
ASA(FM&C)             Assistant Secretary of the Army (Financial Management and Comptroller)
COA                   Chart of Accounts
DCMO                  Deputy Chief Management Officer
DoD COA               DoD Standard Chart of Accounts
ERP                   Enterprise Resource Planning
FFMIA                 Federal Financial Management Improvement Act of 1996
GFEBS                 General Fund Enterprise Business System
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
PMO                   Program Management Office
SFFAS                 Statement of Federal Financial Accounting Standards
SFIS                  Standard Financial Information Structure
USSGL                 U.S. Government Standard General Ledger
                                      INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                       4800 MARK CENTER DRIVE
                                    ALEXANDRIA, VIRGINIA 22350-1500



                                                                                   March 26,2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                  FINANCIAL OFFICER, DOD
               DEPUTY CHIEF MANAGEMENT OFFICER
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: 	 General Fund Enterprise Business System Did Not Provide Required Financial 

           Information (Report No. DODIG-2012-066) 


We are providing this report for review and comment. The Atmy developed the General Fund
Enterprise Business System to provide reliable financial information and comply with Federal
financial reporting guidance. Despite costing the Army $630.4 million as of October 2011, the
General Fund Enterprise Business System did not provide DoD management with required
financial information. We considered management comments on a draft oftbis report when
preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The responses fi'om
the Under Secretary of Defense (Comptroller)/ChiefFinancial Officer, DoD, and the Deputy
Chief Management Officer on Recommendation 1, and the Assistant Secretary of the Army
(Financial Management and Comptroller) comments on Recommendations 3.b and 3.c were
responsive and require no further comments. We request that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, DoD, provide additional comments on
Recommendation 2 and that the Assistant Secretary of the Army (Financial Management and
Comptroller) provide additional comments on Recommendations 3.a and 3.d by April 26, 2012.

If possible, send a .pdffile containing your connnents to audfmr@dodig.mil. Copies of
management comments must have the actual siguature of the authorizing official for your
organization. We are unable to accept the I Sigued I symbol in place of the actual signature. If·
you arrange to send classified comments electronically, you must send them over the SECRET
Intemet Protocol Router Network (SIPRNET).

We appreciate the comtesies extended to the staff. Please direct questions to me at (703)
604-8938.


                                             ~(\.J~
                                              Richard B. V asquez, CPA
                                            . Acting Assistant Inspector General
                                              Financial Management and Reporting
 Report No. DODIG-2012-066 (Project No. D2010-D000FL-0204.000)            March 26, 2012


                Results in Brief: General Fund Enterprise
                Business System Did Not Provide Required
                Financial Information

What We Did                                            This occurred because USD(C)/CFO personnel
To determine whether the General Fund                  did not provide timely updates to the DoD
Enterprise Business System (GFEBS) provided            Standard COA, and the Assistant Secretary of the
DoD management with accurate and reliable              Army (Financial Management and Comptroller)
financial information, we assessed whether             (ASA[FM&C]) did not provide adequate
GFEBS complied with the U.S. Government                oversight for maintaining the GFEBS COA or
Standard General Ledger (USSGL) and the                ensuring that GFEBS consistently entered values
Standard Financial Information Structure (SFIS).       for all the attributes required by USSGL and
The Army developed GFEBS to improve the                SFIS. As discussed in the report, ASA(FM&C)
reliability of financial information and comply        has begun to address these issues.
with Federal financial reporting guidance.
                                                       As a result, GFEBS did not provide DoD
What We Found                                          management with required financial information.
GFEBS did not contain accurate and complete            In addition, GFEBS may not resolve the Army
FY 2010 USSGL and SFIS information as                  General Fund’s long-standing Financial
required by the Federal Financial Management           Management Systems and Intragovernmental
Improvement Act of 1996 and Under Secretary of         Eliminations material weaknesses, despite costing
Defense (Comptroller)/Chief Financial Officer,         the Army $630.4 million as of October 2011.
DoD (USD[C]/CFO), guidance. Specifically:              What We Recommend
   •	 the GFEBS Chart of Accounts (COA) did            The USD(C)/CFO should implement procedures
      not contain 7 of the 153 USSGL accounts          to streamline DoD COA updates. The
      and 28 of the 233 DoD reporting accounts         ASA(FM&C) should not deploy GFEBS to
      included in the FY 2010 Army General             additional users until it can ensure through
      Fund Trial Balance;                              reviews and validation that GFEBS consistently
                                                       enters required attributes. In addition,
   •	 the Army did not maintain detailed               ASA(FM&C) should update the GFEBS COA
      program documentation to determine               with the capability to post to the 28 DoD
      whether the Army properly used the               reporting accounts identified in this report.
      847 posting accounts in GFEBS;
                                                       Management Comments and
   •	 GFEBS did not consistently enter accurate        Our Response
      and complete values at the transaction           Management comments were responsive for three
      level for 11 of the 20 required USSGL            of six recommendations. We request that the
      and SFIS attributes reviewed in Special          USD(C)/CFO provide additional comments on
      Ledger 95 or for 8 of the 20 required            Recommendation 2 and that the ASA(FM&C)
      attributes in the Z1 ledger; and                 provide additional comments on
                                                       Recommendations 3.a and 3.d. Please see the
   •	 GFEBS did not provide sufficient trading         recommendations table on the back of this page.
      partner information in the FY 2010
      GFEBS Trial Balance.
                                                   i
Report No. DODIG-2012-066 (Project No. D2010-D000FL-0204.000)        March 26, 2012

Recommendations Table
         Management                    Recommendations     No Additional Comments
                                      Requiring Comment          Required
Under Secretary of Defense        2                       1
(Comptroller)/Chief Financial
Officer, DoD
Deputy Chief Management                                   1
Officer
Assistant Secretary of the Army   3.a, 3.d                3.b, 3.c
(Financial Management and
Comptroller)

Please provide comments by April 26, 2012.




                                             ii
Table of Contents

Introduction	                                                                  1

      Audit Objective                                                          1
      Background on Financial Reporting and GFEBS                              1
      Army Did Not Have Effective Internal Controls for Implementing
           USSGL and SFIS Requirements                                         5

Finding. Insufficient Implementation of USSGL and SFIS Requirements            6

      Chart of Accounts Was Incomplete                                         7
      GFEBS Program Documentation Lacked Account Definitions                   8
      GFEBS Did Not Consistently Enter Required Attribute Values               9
      GFEBS Contained Inadequate Trading Partner Information                  11
      GFEBS Did Not Contain Accurate and Complete USSGL and
          SFIS Information                                                    12
      Required Financial Information Was Not Provided                         14
      Department of the Army Comments on the Finding and Our Response         14
      Recommendations, Management Comments, and Our Response                  14

Appendices

      A. 	Scope and Methodology                                               18
             Use of Computer-Processed Data                                   19
      B. Prior Coverage of GFEBS	                                             20
      C. Army General Fund Material Weaknesses	                               22
      D. 	DoD Reporting Accounts Not Contained in GFEBS FY 2010
           Chart of Accounts                                                  25
      E. Attributes Reviewed	                                                 27
      F. Department of the Army Comments on the Finding 	                     29

Management Comments

      Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD   33
      Deputy Chief Management Officer                                         35
      Department of the Army                                                  37
Introduction
Audit Objective
Our objective was to determine whether the General Fund Enterprise Business System
(GFEBS) provided DoD management with timely, accurate, and reliable financial
information. Specifically, we assessed whether GFEBS complied with the U.S.
Government Standard General Ledger (USSGL) and the Standard Financial Information
Structure (SFIS). Determining compliance with this guidance did not require testing of
the timeliness of the financial data. Consequently, we did not determine whether GFEBS
provided DoD management with timely financial information. See Appendix A for our
scope and methodology and Appendix B for prior coverage of GFEBS.

Background on Financial Reporting and GFEBS
This review is the third in a series of audits addressing GFEBS and the first to address the
functionality of the system. The first audit, DoDIG Report No. D-2008-041,
“Management of the General Fund Enterprise Business System,” January 14, 2008,
reported that the Army did not effectively plan the acquisition of GFEBS; use an
appropriate method to contract for services; or prepare a realistic economic analysis for
the GFEBS program. The report made 16 recommendations to address 3 major
deficiencies in the planning and development of GFEBS. The second audit, DoDIG
Report No. D-2011-072, “Previously Identified Deficiencies Not Corrected in the
General Fund Enterprise Business System Program,” June 15, 2011, showed that
management actions were insufficient for correcting the GFEBS program planning,
acquisition, and justification deficiencies identified in the first report.

Federal Financial Reporting Requirements
The Chief Financial Officers Act of 1990 requires each executive agency to prepare and
submit auditable financial statements annually. It also guides the improvement in
financial management and internal controls to help ensure that the Government has
reliable financial information and to deter fraud, waste, and abuse of Government
resources. The Federal Financial Management Improvement Act of 1996 (FFMIA)
requires agencies to implement and maintain financial management systems that are in
substantial compliance with:

   •   Federal financial management systems requirements,
   •   Federal accounting standards, and
   •   USSGL at the transaction level.

The FY 2010 National Defense Authorization Act requires DoD to develop a plan to
ensure that the DoD financial statements “are validated as ready for audit by not later
than September 30, 2017.” In October 2011, the Secretary of Defense directed
significant changes in DoD financial audit goals, including calling for audit readiness of
the Statement of Budgetary Resources in 2014, while still achieving full audit readiness
by 2017. To contribute to its ability to achieve audit readiness by 2017, DoD is

                                             1

modernizing its business and financial systems through the deployment of Enterprise
Resource Planning (ERP) 1 systems.

General Fund Enterprise Business System
GFEBS is a financial management system the Army developed so that it can improve the
timeliness and reliability of financial information and obtain a clean audit opinion. The
Army developed the GFEBS program to meet a Secretary of Defense goal for the
Military Services to comply with the Chief Financial Officers Act of 1990 and FFMIA.
During FY 2010, the GFEBS Trial Balance contained $51.7 billion in total assets and
$457.8 million in total liabilities.

The Army developed GFEBS as a Web-based system to support transformation of its
accounting, finance, and budget processes and reduce legacy, stovepiped systems. The
Army’s primary program objectives for developing GFEBS were to:

    •	   improve financial performance,
    •	   standardize business processes,
    •	   ensure that capability exists to meet the future financial management needs, and
    •	   provide Army decisionmakers with relevant, reliable, and timely financial

         information. 


The life-cycle cost estimate for GFEBS, which includes anticipated costs for the initial
system investment and system operation and support, is $1.4 billion.2 The Army
estimates it will spend an additional $1 billion to phase out its existing systems. As of
September 30, 2010, the Army deployed GFEBS to approximately 8,700 users at
14 locations. The Army deployed GFEBS to about 24,000 users at 105 locations as of
June 2011. Once fully deployed, GFEBS will have more than 52,000 users at
211 locations worldwide.

GFEBS Ledger Implementation
In April 2010, the GFEBS Program Management Office implemented a new ledger (Z1)
in GFEBS to meet DoD reporting requirements, which include SFIS. Before
implementing the Z1 ledger, GFEBS included two ledgers: the standard generic general
ledger and the special ledger (SL 95). The standard generic general ledger did not meet
Federal reporting requirements, and SL 95, which was designed to meet Treasury
reporting requirements, did not meet SFIS requirements. The Z1 ledger was not available
for users to view transaction-level data until June 3, 2011.

USSGL and SFIS Requirements
The Treasury Financial Management Service publishes the USSGL, which provides a
uniform Chart of Accounts (COA) and technical guidance used in standardizing Federal


1
 ERP systems are software systems designed to support and automate key operational processes.
2
 The Army’s Economic Analysis, November 2009, estimated the life cycle cost through FY 2022 to be
$1.4 billion.

                                                 2

agency accounting. DoD established SFIS to standardize financial reporting across DoD
and comply with USSGL at the transaction level. SFIS is a comprehensive data structure
that supports requirements for budgetary, financial, cost-performance, and external
reporting across DoD. SFIS requires all systems containing financial information to be
able to capture and transmit SFIS data or demonstrate a crosswalking capability to the
SFIS format. In addition, SFIS requires compliance with the SFIS USSGL transaction
library and DoD Standard COA (DoD COA).

USSGL Requirements
The USSGL COA section provides the basic structure of the USSGL, which consists of
four-digit USSGL account numbers. Agencies may expand the four-digit numbering
system to as many digits as necessary to accommodate agency-specific requirements.
However, subsidiary accounts must summarize or “roll up” to the four-digit USSGL
accounts. The USSGL also includes an account description section, which provides basic
information about each USSGL account, including the account title, number, normal
balance (debit or credit), and definition.

Agencies’ systems must capture financial information at the transaction level by
recording transactions using the USSGL four-digit account plus attributes. USSGL
attributes further describe a USSGL account in order to meet a specific reporting
requirement. USSGL defines which values are possible valid choices within an attribute.
For example, the USSGL contains a Federal/Non-Federal Indicator attribute. This
attribute indicates the type of entity involved in transactions with the reporting entity.
USSGL provides two possible values: “F,” indicating a Federal entity, or an “N,”
indicating a non-Federal entity.

SFIS Requirements
The Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
(USD[C]/CFO), requires DoD systems supporting financial transactions to implement
SFIS. The USD(C)/CFO memorandum, “DoD Standard Chart of Accounts in Standard
Financial Information Structure (SFIS),” August 13, 2007, requires the use of a
DoD COA in general ledger accounting systems. The DoD COA is comprised of
USSGL accounts (first four digits) and DoD standard account extensions (last four digits)
to provide the detail required for budgetary, financial, and management reports.
Component general ledger accounting systems may employ more detail in their posting
accounts using the last four digits. Each posting account must aggregate to one USSGL
and DoD account. See the Figure for an example.




                                            3

                             Figure. Account Relationships

GFEBS Posting                        DoD Reporting                          USSGL

   1750.0100
   Equipment
                                        1750.9000                           1750
                                        Equipment                         Equipment
   1750.0400
  Equipment ­
   In-Transit



Responsibilities
USD(C)/CFO is the Department’s senior leader for financial management and is
responsible for achieving financial visibility across DoD. The strategic goal for financial
visibility is to have immediate access to accurate and reliable financial information
(planning, programming, budgeting, accounting, and cost information) to improve
financial accountability and efficient and effective decisionmaking. Four supporting
performance objectives define the capabilities that must be acquired or enhanced to
achieve the financial visibility strategic goal:

   •	 Produce and interpret relevant, accurate, and timely financial information that is
      readily available for analysis and decisionmaking;
   •	 Link resource allocation to planned and actual business outcomes and 

      warfighter missions;

   •	 Produce comparable financial information across organizations; and
   •	 Achieve audit readiness and prepare auditable financial statements.

The path to achieving these goals and objectives is outlined in the DoD Financial
Improvement and Audit Readiness Plan, which has three basic goals:

   •	 Achieve and sustain audit readiness;
   •	 Achieve and sustain unqualified assurance on the effectiveness of internal

      controls; and 

   •	 Attain FFMIA compliance for financial management systems.

Army Financial Reporting
The FY 2010 Army General Fund (AGF) Financial Statements reported assets of
$379.3 billion, liabilities of $63.8 billion, and budgetary resources of $331.8 billion.
Auditors have issued disclaimers of opinion on the AGF financial statements each year,
including FY 2010, because the lack of an integrated, transaction-driven, financial
management system prevents the Army from preparing auditable financial statements.
Therefore, the Army needed to implement a modern financial capability to streamline its
current portfolio of overlapping and redundant financial and accounting systems.

                                             4

The FY 2010 AGF Financial Statements reported 14 material weaknesses 3 related to the
Army’s financial reporting (see Appendix C for a description of the 14 material
weaknesses). According to the Army’s FY 2010 Statement of Assurance on internal
controls, the Army was modernizing its financial management systems by implementing
ERP systems, one of which is GFEBS. The FY 2010 Statement of Assurance also
indicated that when fully deployed, GFEBS, combined with two other Army ERP
systems, would serve as the foundation for a FFMIA-compliant systems environment.
Furthermore, Deputy Chief Management Office personnel stated that achieving Army
auditability would require collaboration among the Army’s ERP systems.

Army Did Not Have Effective Internal Controls for
Implementing USSGL and SFIS Requirements
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in maintaining the GFEBS COA and entering the required attributes at the
transaction level. The Army did not have effective procedures for ensuring the GFEBS
COA was complete or documenting the purpose of the accounts. In addition, the Army
did not ensure that GFEBS entered all the required attributes at the transaction level. We
will provide a copy of the report to the senior official responsible for internal controls in
the Department of the Army.




3
 A material weakness is a significant deficiency, or a combination of significant deficiencies, resulting in
more than a remote likelihood that a material misstatement of the financial statements will not be prevented
or detected.

                                                     5

Finding. Insufficient Implementation of
USSGL and SFIS Requirements
The General Fund Enterprise Business System (GFEBS) did not contain accurate and
complete FY 2010 U.S. Government Standard General Ledger (USSGL) and Standard
Financial Information Structure (SFIS) information as required by the Federal Financial
Management Improvement Act of 1996 and Under Secretary of Defense (Comptroller)/
Chief Financial Officer, DoD (USD[C]/CFO), guidance. Specifically:

    •	 the GFEBS Chart of Accounts (COA) did not contain 7 of the 153 USSGL
       accounts and 28 of the 233 DoD reporting accounts included in the FY 2010
       Army General Fund (AGF) Trial Balance;

    •	 the Army did not maintain detailed program documentation to determine whether
       the Army properly used the 847 posting accounts in GFEBS;

    •	 GFEBS did not consistently enter accurate and complete values at the transaction
       level for 11 of the 20 required USSGL and SFIS attributes 4 reviewed in Special
       Ledger 95 (SL 95) or for 8 of the 20 required attributes in the Z1 ledger; and

    •	 GFEBS did not provide sufficient trading partner information 5 in the FY 2010
       GFEBS Trial Balance.

GFEBS did not contain accurate and complete USSGL and SFIS information because:

    •	 the USD(C)/CFO did not provide timely updates to the DoD COA, and

    •	 the Assistant Secretary of the Army (Financial Management and Comptroller)
       (ASA[FM&C]) did not provide adequate oversight for maintaining the GFEBS
       COA or ensuring that GFEBS consistently entered values for all the attributes
       required by USSGL and SFIS.

As a result, GFEBS did not provide DoD management with required financial
information. In addition, GFEBS may not resolve the AGF’s long-standing Financial
Management Systems and Intragovernmental Eliminations material weaknesses, despite
costing the Army $630.4 million as of October 2011. Therefore, the Army may need to
spend more funds than originally budgeted for GFEBS to produce auditable financial
statements and provide decisionmakers with accurate and reliable financial information.


4
  Attributes further describe USSGL and DoD accounts to meet specific reporting requirements.
5
  The trading partner attribute indicates the Treasury Department Code of the Federal entity involved in the
transaction with the Army. Federal Government entities are required to eliminate intragovernmental
transactions from consolidated financial statements to prevent overstating accounts for intra/inter-entity
activity. Intragovernmental transactions are any transactions involving sales, services, or transfers within
or between two entities of the Federal Government.

                                                     6

Chart of Accounts Was Incomplete
Although GFEBS will be the Army’s general ledger for the AGF Financial Statements,
the Army developed and deployed GFEBS without incorporating accounts from the
USSGL and DoD COAs. Specifically, the GFEBS COA did not contain 7 of the
153 USSGL accounts or 28 of the 233 DoD reporting accounts included in the FY 2010
AGF Trial Balance.

To ensure that GFEBS provides the capability to record all AGF transactions, the GFEBS
COA should have included all accounts reported in the FY 2010 AGF Trial Balance. In
addition, detailed program documentation did not exist to determine whether the Army
properly used the 847 posting accounts in GFEBS.

GFEBS Chart of Accounts Excluded Some USSGL Accounts
GFEBS did not contain 7 of the 153 USSGL accounts that the Army used for financial
reporting. The Army created GFEBS to capture general ledger data into a single system;
however, GFEBS did not contain all the USSGL accounts necessary for AGF reporting. 6
ASA(FM&C) personnel stated that USD(C)/CFO did not provide posting guidance for
these accounts until August 23, 2010. Once fully deployed, GFEBS should have the
capability to process all AGF financial activity. During FY 2010, the AGF reported an
absolute value 7 of $517.8 million for the seven USSGL accounts not in GFEBS. See
Table 1 for the list of missing accounts.

    Table 1. USSGL Accounts Missing From the GFEBS Chart of Accounts
     Account                                           FY 2010 AGF Trial
     Number                        Title                Balance Amount
                                                           (thousands)
    1341         Interest Receivable – Loans                     $32
    1342         Interest Receivable – Investments                 37
    1345         Allowance for Loss on Interest                    32
                 Receivable – Loans
    3400         Fiduciary Net Assets                         135,244
    3410         Contributions to Fiduciary Net Assets        183,498
    3420         Withdrawals or Distributions of              198,857
                 Fiduciary Net Assets
    6340         Interest Expense Accrued on the                 127
                 Liability for Loan Guarantees
      Total                                                 $517,827




6
  We did not determine whether GFEBS should have processed transactions at the deployed locations as of

September 30, 2010, for these accounts.

7
  Absolute value is the sum of the positive values of debit and credit amounts without regard to the sign.


                                                    7
GFEBS Chart of Accounts Excluded Multiple DoD Accounts
GFEBS did not contain 28 of the 233 DoD reporting accounts that the Army needed for
AGF reporting. See Appendix D for a list of the DoD reporting accounts GFEBS did not
                                       contain. ASA(FM&C) personnel agreed that 6 of
      GFEBS, as the AGF target         these accounts should have been used for FY 2010
      accounting system, should        reporting and stated that the remaining 22 accounts
    include all the DoD reporting      were not needed for current GFEBS business
    accounts necessary to record       processes. GFEBS, as the AGF target accounting
     AGF financial transactions.       system, should include all the DoD reporting
                                       accounts necessary to record AGF financial
transactions. The FY 2010 AGF Trial Balance contained an absolute value of
$25.1 billion for these 28 accounts. The ASA(FM&C) should ensure that the GFEBS
Program Management Office (PMO) updates the GFEBS COA to reflect these accounts
because the Army needs them for AGF reporting.

GFEBS Program Documentation Lacked
Account Definitions
Detailed program documentation did not exist to determine whether the Army properly
used the 847 posting accounts in GFEBS. Neither the ASA(FM&C) nor GFEBS PMO
could provide program documentation defining any of the 847 GFEBS posting accounts.
For example, GFEBS contained 228 posting accounts for operating expenses, but the
ASA(FM&C) could not provide definitions explaining the purpose of these accounts.
ASA(FM&C) and GFEBS PMO personnel stated that they rely on the title of the
accounts in the GFEBS COA for the purpose and usage of the accounts. For instance,
GFEBS contained an operating expense posting account 6100.22NZ, “OpEx/Pgm Costs –
Other.” The account titles did not provide adequate explanation to determine the purpose
of these accounts. Written definitions would provide the detail needed to determine
whether the Army used the accounts properly.

In addition, the first four digits of five GFEBS posting accounts did not match their
corresponding reporting accounts. USSGL permits agencies to expand the four-digit
number system in their COAs; however, it does not provide agencies with the authority to
change the first-four-digit numbering scheme. Table 2 illustrates these variances.

GFEBS PMO personnel did not provide adequate explanations for crosswalking these
posting accounts to nonmatching DoD accounts. They stated that USSGL guidance
required that the information in these posting accounts be reported in the nonmatching
DoD accounts. However, our review of the account titles showed that the Army may not
have complied with USSGL guidance. For example, GFEBS posting account
6400.122G, “OpEx/Pgm Costs – SFIS – Military – Health,” is reported in DoD account
6100.9000, “Operating Expenses/Program Costs,” which is then reported in USSGL
account 6100. USSGL guidance states that agencies should use USSGL account 6400,
“Benefit Expense,” to report program activities, including the employer’s portion of the
contribution to health insurance.

                                            8

The title for GFEBS posting account 6400.122G implies that this account is for program
activity specific to military health benefits. USSGL guidance states that benefits not
included in USSGL account 6400, “Benefit Expense,” should be reported in USSGL
account 6100, “Operating Expenses/Program Costs.” By not having GFEBS posting
account definitions, the Army does not have assurance that it is appropriately applying
USSGL guidance and reporting financial information correctly.
          Table 2. GFEBS Posting and DoD Reporting Account Variances
  GFEBS                                        DoD
  Posting                  Title            Reporting            Title
 Account                                     Account
2110.9999 AP Balancing                      2120.9000 Disbursements in Transit
6400.122G OpEx/Pgm Costs – SFIS –           6100.9000 Operating Expenses/
            Military – Health                          Program Costs
6400.12V0 OpEx/Pgm Costs – Civ Separation 6100.9000 Operating Expenses/
            Allow (CFDH_CFIH*)                         Program Costs
6400.13S0 OpEx/Pgm Costs – Civ Bnfts Not 6100.9000 Operating Expenses/
            Otrwise Classified                         Program Costs
6400.13U0 OpEx/Pgm Costs – Civ Severance 6100.9000 Operating Expenses/
            Pay Benefits                               Program Costs
*CFDH_CFIH = Civilian Foreign Direct Hire/Civilian Foreign Indirect Hire

GFEBS Did Not Consistently Enter Required
Attribute Values
GFEBS did not consistently enter accurate and complete values at the transaction level
for 11 of the 20 required USSGL and SFIS attributes reviewed in SL 95 or for 8 of the
20 required attributes in the Z1 ledger. ASA(FM&C) personnel stated that the
GFEBS PMO implemented the Z1 ledger in April 2010 to correct issues they had
identified in complying with the SFIS requirements. As the Z1 ledger was not available
to view transaction-level data until June 2011, we began our review of USSGL and SFIS
attributes with SL 95 transactions. The Army must capture the four-digit USSGL
account plus applicable attribute values at the transaction level to comply with USSGL
and SFIS guidance.

Required Attribute Values Not Consistently Entered in SL 95
GFEBS did not consistently enter accurate and complete values in SL 95 for 11 of the
20 required attributes reviewed at the transaction level. Although GFEBS consistently
entered values for 9 of the 20 reviewed attributes, GFEBS was missing or contained
incorrect USSGL values at the transaction level for the remaining 11 required attributes,
10 of which SFIS also required. SFIS guidance did not contain the Prior-Year
Adjustment Code attribute. Because this attribute was not included in the SFIS guidance,
the Army did not incorporate it into GFEBS. USD(C)/CFO and the Deputy Chief
Management Officer (DCMO) should add Prior-Year Adjustment Code to the required
SFIS attributes. Without the correct information at the transaction level, the Army cannot
comply with the FFMIA requirement to develop a USSGL-compliant financial system.


                                                  9

Table 3 provides a list of the attributes not consistently entered in SL 95. See
Appendix E for a list of the attributes reviewed.
                   Table 3. Attributes Not Consistently Entered in SL 95
                                                                                 Transactions With
                                                            Transactions
                Required Attribute                                                 Attributes Not
                                                             Reviewed*
                                                                                Consistently Entered
 Availability Time Indicator                                     2,776                    1,535
 Budget Enforcement Act Category Indicator                       8,820                    2,815
 Covered/Not Covered Code                                        2,033                         6
 Custodial/Non-Custodial Indicator                               3,296                    1,900
 Definite/Indefinite Flag Code                                     388                      230
 Direct Transfer Account Code                                       16                        16
 Direct Transfer Agency Code                                        16                        16
 Federal/Non-Federal Indicator                                  32,845                      744
 Prior-Year Adjustment Code                                     10,401                   10,401
 Trading Partner                                                   748                       389
 Transaction Partner Code                                        2,050                        20
* We verified that the transactions reviewed contained an acceptable attribute value; we did not determine
the correctness of the attribute values in the transactions. In addition, some transactions reviewed were
missing multiple attribute values.

Required Attribute Values Not Consistently Entered in Z1 Ledger
Although the Z1 ledger was created to comply with SFIS requirements, GFEBS still did
not consistently enter accurate or complete values for 8 of the 20 required USSGL and
SFIS attributes reviewed at the transaction level. Table 4 provides a list of the attributes
not consistently entered in the Z1 ledger.
              Table 4. Attributes Not Consistently Entered in the Z1 Ledger
                                                                                 Transactions With
                                                            Transactions
                Required Attribute                                                 Attributes Not
                                                             Reviewed*
                                                                                Consistently Entered
 Budget Enforcement Act Category Indicator                       8,820                    2,028
 Covered/Not Covered Code                                        1,810                        10
 Custodial/Non-Custodial Indicator                               3,508                    3,505
 Definite/Indefinite Flag Code                                    388                       230
 Direct Transfer Account Code                                       16                        16
 Direct Transfer Agency Code                                        16                        16
 Prior-Year Adjustment Code                                     10,206                   10,206
 Trading Partner                                                 1,691                     1,118
* We verified that the transactions reviewed contained an acceptable attribute value; we did not determine
the correctness of the attribute values in the transactions. In addition, some transactions reviewed were
missing multiple attribute values.




                                                    10 

In addition, the Z1 ledger did not contain 452 of the reviewed SL 95 transactions
processed before April 2010. For 430 of the 452 transactions, GFEBS PMO personnel
stated that the transactions had been reversed and no longer had the required information
to record them in the Z1 ledger. The system identified 4 of the 452 transactions as
clearing documents. GFEBS PMO personnel stated that information needed in the
clearing documents was no longer available. The remaining 18 transactions were related
to posting accounts 1410.0100, “Advances and Prepayments,” and 6100.5000, “Cash
Discount Received.” These transactions were included in SL 95 but were not recorded in
the Z1 ledger.

The Z1 ledger and SL 95 FY 2010 ending balances for each of these two accounts
balanced; however, the ledgers contained different FY 2010 beginning balances. As
such, the beginning balances may have been adjusted to include transaction amounts not
recorded in the Z1 ledger. The data in these two ledgers need to be consistent to provide
reliable information for decisionmakers.

GFEBS Contained Inadequate Trading
Partner Information
GFEBS did not provide sufficient trading partner information in the FY 2010 GFEBS
Trial Balance. GFEBS did not correctly capture
trading partner information to facilitate required       GFEBS reported $48.7 billion
Intragovernmental Eliminations. Transactions                  to the FY 2010 DoD
with another Federal entity must contain trading            Agency-Wide Financial
partner information. However, the FY 2010                Statements without identifying
GFEBS Trial Balance contained 19 reporting                    the trading partner.
accounts identified as Federal that did not include
sufficient trading partner information. As a result, GFEBS reported $48.7 billion to the
FY 2010 DoD Agency-Wide Financial Statements without identifying the trading
partner. In addition, three reporting accounts contained a Non-Federal attribute value;
however, the Business Partner Number 8 indicated the Army should have classified these
amounts as Federal. This resulted in GFEBS reporting an additional $2.8 million without
trading partner information.

The Army must capture the trading partner information at the transaction level to ensure
that the required information is reported for Intragovernmental Eliminations. The Army
recognized Intragovernmental Eliminations as 1 of 14 reported material weaknesses
preventing it from achieving auditable AGF financial statements. The Army has
designated GFEBS as part of the solution to correct this material weakness.




8
 The Business Partner Number identifies entities engaged in buying or selling with the Federal
Government.

                                                   11 

GFEBS Did Not Contain Accurate and Complete
USSGL and SFIS Information
GFEBS did not contain accurate and complete USSGL and SFIS information because
USD(C)/CFO personnel did not provide timely updates to the DoD COA and
ASA(FM&C) personnel did not provide adequate oversight for maintaining the
GFEBS COA or ensuring that GFEBS consistently entered values for all the attributes
required by USSGL and SFIS.

DoD Chart of Accounts Was Not Implemented
in a Timely Manner
USD(C)/CFO personnel stated that they did not provide timely updates to the DoD COA
because of the volume of changes in the USSGL COA and the formal coordination
necessary to approve the updates. USD(C)/CFO issued a DoD COA in March 2008. In
June 2008, Treasury added accounts 3400, 3410, 3420, and 6340 to the USSGL COA for
FY 2009 reporting. However, USD(C)/CFO did not incorporate these accounts until
more than 2 years later, when it issued a revised DoD COA for FY 2010 and FY 2011 on
August 23, 2010.

USD(C)/CFO personnel stated that during this time, General Fund working groups were
identifying what changes were needed, and they elected to hold off on the release of an
updated DoD COA for FY 2010 until the Working Capital Fund working group was
completed in April or May 2010. In addition, they stated that because the USSGL
updates were expected in June 2010, they decided to wait and include the FY 2011
updates in a single release. Although USD(C)/CFO waited to issue this guidance until
1 month before the end of the fiscal year, it still required the agencies to implement the
changes for fourth-quarter reporting of FY 2010, or by September 30, 2010.
USD(C)/CFO should develop and implement procedures to streamline its processes for
providing DoD COA updates.

Army Did Not Provide Adequate Oversight for Implementation of
USSGL and SFIS Requirements
ASA(FM&C) did not provide
adequate oversight for maintaining       ASA(FM&C) did not have procedures to
the GFEBS COA or ensuring that         ensure that the GFEBS COA was updated in
GFEBS consistently entered values       a timely manner, the purpose and usage of
for all the attributes required by        the accounts were documented, and the
USSGL and SFIS. Specifically,          required attributes were consistently entered.
ASA(FM&C) did not have
procedures to ensure that the GFEBS COA was updated in a timely manner, the purpose
and usage of the accounts were documented, and the required attributes were consistently
entered.

ASA(FM&C) did not have procedures to ensure that the GFEBS PMO updated the
GFEBS COA in a timely manner. When asked why this occurred, ASA(FM&C)
personnel stated that they did not recognize the extent of their oversight responsibility

                                             12 

until later in the development of GFEBS. ASA(FM&C) had personnel on site providing
oversight of the program. USD(C)/CFO issued an update to the DoD COA on
August 23, 2010. On November 29, 2010, ASA(FM&C) personnel requested approval
from USD(C)/CFO on the Army’s methodology for updating the GFEBS COA according
to the revised DoD COA. ASA(FM&C) personnel added the DoD reporting accounts to
the GFEBS COA. These additions included the 28 DoD reporting accounts not used in
GFEBS, which contain 18 accounts that were in the March 2008 DoD COA and 10 that
were in the August 2010 DoD COA. However, ASA(FM&C) and GFEBS PMO
personnel stated that as of March 31, 2011, they had not updated GFEBS with the
capability to post to the added accounts. ASA(FM&C) personnel stated that until
business processes were identified, they would not take any action to incorporate
additional reporting accounts. ASA(FM&C) should update the GFEBS COA with the
capability to post to these 28 DoD reporting accounts.

In addition, ASA(FM&C) did not have procedures to document the purpose and usage of
the accounts in the GFEBS COA. ASA(FM&C) and GFEBS PMO personnel stated that
titles of the accounts in the GFEBS COA were sufficient explanation of the purpose and
usage of the accounts and that no other program documentation existed. In August 2011,
ASA(FM&C) personnel provided a draft document describing the purpose and usage of
the GFEBS posting accounts. The ASA(FM&C) stated that, as of September 2011,
detailed definitions and program documentation existed for 665 of the 847 posting
accounts. ASA(FM&C) also developed procedures, effective August 2, 2011, addressing
the development of the GFEBS COA; however, these procedures did not address
documenting the purpose and usage of the accounts. ASA(FM&C) should update the
procedures to document the purpose and usage of the accounts on a continuous basis.

ASA(FM&C) did not provide
adequate oversight to ensure                   ASA(FM&C) did not provide adequate
GFEBS consistently entered values          oversight to ensure GFEBS consistently entered
for all the attributes required by         values for all the attributes required by USSGL
USSGL and SFIS, and thus, GFEBS                  and SFIS, and thus, GFEBS was not
was not USSGL-compliant at the              USSGL-compliant at the transaction level and
transaction level and could not meet       could not meet specific reporting requirements.
specific reporting requirements.
ASA(FM&C) personnel stated that they did not verify attribute values in GFEBS because
DoD had multiple standards for attribute values. Therefore, they did not develop
procedures to verify the GFEBS attribute values. When we briefed ASA(FM&C)
personnel on the results of the audit, they acknowledged that it appeared as if GFEBS did
not consistently enter attribute values. ASA(FM&C) personnel stated that they were
working on a solution to correct the problems identified with the trading partner attribute.

ASA(FM&C) is responsible for providing timely, accurate, and reliable financial
information to enable leaders and managers to incorporate cost considerations into their
decisionmaking. ASA(FM&C) is a major stakeholder in the Army’s implementation of
GFEBS to improve the accuracy and auditability of financial information. ASA(FM&C)
should have reviewed and validated the financial data to ensure that GFEBS entered all

                                            13 

required attributes at the transaction level. Therefore, ASA(FM&C) should periodically
review the financial data for the required attributes at the transaction level.

Required Financial Information Was Not Provided
GFEBS did not provide DoD management with required financial information. In
addition, GFEBS may not resolve the AGF’s long-standing Financial Management
Systems and Intragovernmental Eliminations material weaknesses, despite costing the
Army $630.4 million as of October 2011. Therefore, the Army may need to spend more
funds than originally budgeted for GFEBS to produce auditable financial statements and
provide decisionmakers with accurate and reliable financial information.

The Army’s Office of Business Transformation issued the Army Business Systems
Information Technology Strategy on February 14, 2011, describing the Army’s plan for
governing ERP systems and other business systems to ensure that end-to-end business
processes support mission requirements. The Army’s strategy included implementing
transaction-driven and audit-compliant USSGL systems, thereby acknowledging that the
successful implementation of its ERP systems was crucial for resolving long-standing
material weaknesses, such as Financial Management Systems and Intragovernmental
Eliminations, and providing accurate and reliable information on the cost of operations.

ASA(FM&C) should ensure that GFEBS complies with USSGL and SFIS before
deploying GFEBS to additional users. The Army has deployed GFEBS to about
24,000 of the 52,000 estimated users. Until the Army increases oversight and develops
                                        procedures to remedy these compliance issues
     ASA(FM&C) should not deploy        and  prevent reoccurrences, DoD may not be able
     GFEBS to additional users until    to achieve the basic goals and objectives in the
      GFEBS consistently enters all     Financial Improvement and Audit Readiness
         required attributes at the     Plan. In addition, DoD may not meet the
             transaction level.         September 30, 2017, audit readiness validation
                                        date. Therefore, ASA(FM&C) should not
deploy GFEBS to additional users until GFEBS consistently enters all required attributes
at the transaction level.

Department of the Army Comments on the Finding and
Our Response
Summaries of ASA(FM&C) comments on the finding and our response are in
Appendix F.

Recommendations, Management Comments, and
Our Response
1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, in coordination with the Deputy Chief Management Officer,
incorporate the Prior-Year Adjustment Code attribute into the Standard Financial
Information Structure guidance.


                                           14 

USD(C)/CFO Comments
The Deputy Chief Financial Officer agreed and stated that the Prior-Year Adjustment
Code would be included in the next release of the Business Enterprise Architecture,
scheduled for April 2012.

DCMO Comments
DCMO agreed and stated that the Prior-Year Adjustment Code would be included in the
next release of the Business Enterprise Architecture, scheduled for April 2012. She also
indicated that a DCMO and USD(C)/CFO SFIS validation found GFEBS to be compliant
with 93 percent of the SFIS business rules, which was one of the higher percentages for
systems of this magnitude that they have validated to date. In addition, she stated that the
GFEBS PMO has been receptive to the DCMO and USD(C)/CFO recommendations
concerning the GFEBS configuration.

Our Response
The Deputy Chief Financial Officer and the DCMO comments were responsive, and no
further comments are required. DCMO personnel performed the SFIS validation on
FY 2011 data. Their review found compliance issues with five of the required attributes
discussed in this report and also identified that the GFEBS COA did not contain all of the
DoD reporting accounts.

2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, develop and implement procedures to streamline the
processes for updating the DoD Chart of Accounts.

USD(C)/CFO Comments
The Deputy Chief Financial Officer partially agreed and stated that several updates were
incorporated into the DoD COA update process over the past year. He indicated that
while the USD(C)/CFO’s mission was to provide updates on a timely basis, ensuring the
accuracy and consistency of the guidance was imperative. He stated that a massive
cooperative effort to eliminate unnecessary accounts, update inconsistent guidance, and
add new accounts delayed the release of the DoD COA in 2010.

The Deputy Chief Financial Officer also stated that the DoD COA was aligned to the
USSGL updates issued by the Treasury, usually in late June. He indicated that Treasury
regularly issues corrections and clarifications to these updates in August and sometimes
later in the new fiscal year. In addition, he stated that while it would not be practicable to
release DoD COA updates when Treasury corrections were expected, his office would
make the utmost effort to release updates as quickly as possible.

Our Response
The Deputy Chief Financial Officer comments were not responsive. While he provided
additional explanation about the delays in updating the FY 2010 DoD COA and stated
that several process updates were incorporated this year, he did not describe the updates


                                             15 

made or discuss how these updates have changed or improved the process. USD(C)/CFO
should provide updates to the DoD Components as soon as possible.

Without timely updates, the DoD Components cannot ensure that the financial systems
are reporting the required financial information needed to comply with the FFMIA. The
DoD Components need sufficient time to incorporate USSGL and SFIS changes into their
financial systems to facilitate the correct reporting of financial information. We request
that the USD(C)/CFO provide comments on the final report addressing the development
and implementation of procedures to streamline the processes for updating the
DoD COA.

3. We recommend that the Assistant Secretary of the Army (Financial Management
and Comptroller):

    a.	 Update the GFEBS Chart of Accounts with the capability to post to the
        28 DoD reporting accounts identified in the report.

Department of the Army Comments
ASA(FM&C) did not agree or disagree, but stated that the 28 general ledger accounts
were added to the GFEBS COA in February 2011.

Our Response
The ASA(FM&C) comments were not responsive. In a draft of this report, we
acknowledged that ASA(FM&C) personnel added the 28 general ledger accounts to the
GFEBS COA. However, ASA(FM&C) personnel stated they had not updated GFEBS
with the capability to post to the added accounts. As a result, GFEBS did not have the
capability for recording transactions in all reporting accounts required by SFIS and
USSGL.

Without the posting logic, the Army cannot use the accounts and the GFEBS COA
cannot be USSGL and SFIS compliant. We request that ASA(FM&C) provide comments
on the final report that address updating the GFEBS COA with the capability to post to
the 28 DoD reporting accounts.

    b. Update the procedures to document and maintain account definitions in the
       General Fund Enterprise Business System program documentation.

    c.	 Periodically review and validate the financial data to ensure that the General
        Fund Enterprise Business System enters all required attributes at the
        transaction level.

Department of the Army Comments
ASA(FM&C) agreed and stated that the Army had updated the COA procedure in
August 2011 and would update the definitions portion of the procedure by June 2012 as
part of ongoing actions to develop comprehensive general ledger documentation. She
also stated that ASA(FM&C) personnel began a review of GFEBS SFIS attributes in

                                           16 

May 2011. In addition, she stated that ASA(FM&C) personnel performed a 100-percent
review of Federal Agencies’ Centralized Trial-Balance System I and II related SFIS
attributes in December 2011 and submitted corrections to the GFEBS PMO. She stated
that once the PMO completed the corrections, ASA(FM&C) personnel would review the
accuracy of the corrections and add steps to ensure that personnel review financial data
when SFIS attributes change. The expected date of completion was March 2012.

Our Response
The ASA(FM&C) comments were responsive, and no further comments are required.

    d. Discontinue deployment of the General Fund Enterprise Business System to
       additional users until the system consistently enters all required attributes at
       the transaction level.

Department of the Army Comments
ASA(FM&C) did not agree and stated that the audit was based on GFEBS data as of
September 30, 2010. She indicated that at that time, GFEBS was not fully deployed or
developed, was transacting less than 2 percent of the Army’s obligation activity, and was
not configured to meet Treasury reporting requirements. She stated that as a result, the
missing ledger accounts and other data elements in the report had little impact on the
reliability of the data reported by GFEBS.

Our Response
The ASA(FM&C) comments were nonresponsive. Successful implementation of GFEBS
is critical for the Army to meet its goals of improving the timeliness and reliability of
financial information and obtaining a clean audit opinion. To accomplish this, GFEBS
must have the capability to process all current AGF transactions as early in development
and implementation as possible. In addition, as more users and locations are placed on
GFEBS, there is greater risk that correcting identified deficiencies will require extended
time and additional funds to correct.

GFEBS, as the AGF target accounting system, should include all the DoD reporting
accounts and posting logic necessary to record AGF financial transactions. The Army
must capture the four-digit USSGL account plus applicable attribute values at the
transaction level to comply with USSGL and SFIS guidance.

We request that ASA(FM&C) reconsider her position and provide comments on the final
report addressing how the SFIS and USSGL deficiencies we identified will be fully
corrected before further system deployment.




                                           17 

Appendix A. Scope and Methodology
We conducted this performance audit from July 2010 through November 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusions based on our audit objective.
The specific objective of this audit was to determine whether GFEBS complied with
USSGL and SFIS. Determining compliance with this guidance did not require testing of
the timeliness of the financial data. Consequently, we did not determine whether GFEBS
provided DoD management with timely financial information. We believe that the
evidence obtained provides a reasonable basis for our finding and conclusions based on
our audit objective.

We contacted personnel from USD(C)/CFO, Deputy Chief Management Office,
ASA(FM&C), Program Executive Office Enterprise Information Systems, GFEBS PMO,
and the Defense Finance and Accounting Service to discuss their roles and
responsibilities regarding the creation and maintenance of the DoD and GFEBS COAs.
We interviewed personnel from Fort Jackson, South Carolina, and Fort Stewart, Georgia,
to determine how they used GFEBS to perform their duties. In addition, we reviewed the
Army’s FY 2010 Annual Statement of Assurance on Internal Controls to determine the
Army’s previously identified material weaknesses.

We determined whether GFEBS provided DoD management with reliable financial
information by reviewing GFEBS for compliance with USSGL and SFIS for FY 2010.
We compared the posting and reporting accounts included in the GFEBS COA to the
Treasury and DoD requirements for account numbers, titles, and descriptions.

Our review of GFEBS compliance with 20 required attributes consisted of a nonstatistical
sample of 48,413 FY 2010 transactions from SL 95 and 48,184 transactions from the
Z1 ledger. Of the 847 GFEBS posting accounts, USSGL required attribute values for
823. We attempted to query the FY 2010 transactions for these 823 GFEBS posting
accounts; however, not all posting accounts contained transactions for FY 2010. For the
264 posting accounts with activity and attribute requirements, we downloaded
transactions from various time frames in FY 2010.

Although the Z1 ledger was implemented in April 2010, users could not view transaction-
level data until June 3, 2011. As USSGL and SFIS attributes are required to be entered at
the transaction level, the Z1 ledger was not available for use in our original analysis. In
February 2011, we asked ASA(FM&C) personnel whether the attribute values in SL 95,
which was created to comply with Treasury requirements, would match the
corresponding attribute values in the Z1 ledger. ASA(FM&C) personnel stated that this
was a valid assumption. In August 2011, ASA(FM&C) personnel indicated that SL 95
was not the correct ledger to complete the SFIS attribute analysis. Therefore, to
determine whether the inconsistencies we identified in SL 95 were corrected by the
Z1 ledger, we repeated our analysis on the Z1 ledger.


                                            18 

Use of Computer-Processed Data
To perform this audit, we used FY 2010 GFEBS transactional data, trial balance, and the
GFEBS COA. We discussed data integrity with financial management and system design
experts, agency officials, and officials at organizations involved with developing GFEBS.
We validated the accuracy of the GFEBS COA with USSGL and SFIS requirements and
reviewed trial balance and transactional data files for anomalies, such as missing or
incorrect USSGL attribute values. We used this information to determine whether the
Army complied with USSGL and SFIS requirements when developing and deploying
GFEBS. We used the Electronic Data Access to review contract and disbursement
information. We also obtained the FY 2010 AGF Trial Balance from the Defense
Departmental Reporting System–Audited Financial Statements. The data reliability
issues we identified are discussed in the finding. We believe the computer-processed
data we used were sufficient to support the finding in this report.

Use of Technical Assistance
We did not use technical assistance in performing this audit.




                                            19 

Appendix B. Prior Coverage of GFEBS
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), and the U.S. Army Audit Agency (AAA) issued
12 reports discussing GFEBS. Unrestricted GAO reports can be accessed over the
Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil/.

GAO
GAO Report No. GAO-11-53, “DOD Business Transformation: Improved Management
Oversight of Business System Modernization Efforts Needed,” October 7, 2010

GAO Report No. GAO-07-860, “DOD Business Transformation: Lack of an Integrated
Strategy Puts the Army’s Asset Visibility System Investments at Risk,” July 27, 2007

DoD IG
DoD IG Report No. D-2011-072, “Previously Identified Deficiencies Not Corrected in
the General Fund Enterprise Business System Program,” June 15, 2011

DoD IG Report No. D-2008-041, “Management of the General Fund Enterprise Business
System,” January 14, 2008

Army
AAA Report No. A-2010-0187-FFM, “General Fund Enterprise Business System –
Federal Financial Management Improvement Act Compliance, Examination of
Requirements Through Test Event 1.4.0,” September 14, 2010

AAA Report No. A-2009-0232-FFM, “General Fund Enterprise Business System –
Federal Financial Management Improvement Act Compliance, Examination of Releases
1.4.1, 1.4.2, 1.4.3, and 1.4.4 Requirements,” September 30, 2009

AAA Report No. A-2009-0231-FFM, “General Fund Enterprise Business System –
Federal Financial Management Improvement Act Compliance, Examination of Release
1.3 Functionality,” September 30, 2009

AAA Report No. A-2009-0226-FFM, “Examination of Federal Financial Management
Improvement Act Compliance – Test Validation, General Fund Enterprise Business
System Release 1.2,” September 30, 2009

AAA Report No. A-2008-0263-FFM, “General Fund Enterprise Business System –
Federal Financial Management Improvement Act Compliance, Examination of Release
1.3 Requirements,” September 29, 2008



                                          20 

AAA Report No. A-2008-0204-FFM, “General Fund Enterprise Business System –
Federal Financial Management Improvement Act Compliance, Examination of Release
1.2 Business Process Designs,” August 14, 2008

AAA Report No. A-2007-0217-FFM, “General Fund Enterprise Business System –
Federal Financial Management Improvement Act Compliance, Examination of Release
1.2 Requirements,” September 13, 2007

AAA Report No. A-2007-0187-FFM, “General Fund Enterprise Business System –
Federal Financial Management Improvement Act Compliance, Examination of Release
1.1 Requirements,” August 9, 2007




                                       21 

Appendix C. Army General Fund
Material Weaknesses
The Army acknowledged the following 14 financial statement material weaknesses in the
FY 2010 AGF Financial Statements.

Abnormal Account Balances
Defense Finance and Accounting Service did not detect, report, or take action to
eliminate abnormal balances included in the AGF accounting records. Abnormal
balances not only distort the AGF financial statements, but also indicate internal control
and operational deficiencies and may conceal instances of fraud.

Accounting Adjustments
Because of inadequate financial management systems and processes, journal voucher
adjustments and data calls were used to prepare the AGF financial statements.

Accounts Payable
The Army is unable to account for and report accounts payable properly. In addition, the
Army accounting systems do not capture trading partner data at the transaction level in a
manner that facilitates trading partner aggregations for intra-agency sales. Therefore the
Army has acknowledged that it was unable to reconcile intragovernmental accounts
payable to the related intragovernmental accounts receivable that generated the payable.

Accounts Receivable
The Army has acknowledged weaknesses in its management of accounts receivable. The
weaknesses are considered to be DoD-wide and apply to both public and
intragovernmental receivables at the AGF level. The weaknesses include:

   •	 noncompliance with policies and procedures on referrals to the Treasury’s Debt
      Management Office and on write-offs of 2-year-old debt;
   •	 a lack of controls to ensure that all entitlement system receivables (vendor pay,
      civilian pay, and interest) are recorded in the accounting systems; and
   •	 a lack of controls to ensure that accounts receivable balances are supportable at
      the transaction level.

Contingency Payment Audit Trails
The Army acknowledged that the maintenance of substantiating documents by certifying
and entitlement activities creates significant challenges in tracing audit trails for support
of financial statements. In addition, the Army acknowledged that some commercial
payments contained the minimum supporting documentation but did not comply with
other statutory and regulatory requirements. Payments that are not properly supported do
not provide the necessary assurance that funds were used as intended.



                                             22 

Environmental Liabilities
The Army has not properly estimated and reported its environmental liabilities. For
example, the processes used to report environmental liabilities for the Defense
Environmental Restoration Program, Base Realignment and Closure, and the non-
Defense Environmental Restoration Program on the financial statements were not
adequate to establish or maintain sufficient documentation and audit trails. Although
estimators were properly qualified to perform estimates, the Army did not document
supervisory reviews of estimates and did not have adequate quality control programs in
place to ensure the reliability of data.

Financial Management Systems
Army accounting systems lacked a single, standard, transaction-driven general ledger.
The Army also needed to upgrade or replace many of its nonfinancial feeder systems so it
could meet financial statement reporting requirements.

Fund Balance With Treasury
DoD and its Components, including the Army, have had long-standing problems in
reconciling transaction activity in their Fund Balance with Treasury accounts. The
appropriation balances recorded in the accounting records do not agree with the balances
held at Treasury.

General Property, Plant, and Equipment
Statement of Federal Financial Accounting Standards (SFFAS) No. 6, “Accounting for
Property, Plant, and Equipment” requires that all General Property, Plant, and Equipment
be recorded at cost and that depreciation expense be recognized on all General Property,
Plant, and Equipment. The Army has acknowledged that real property and military
equipment were not recorded at acquisition or historical cost and did not include all the
costs needed to bring these assets to a form and location suitable for their intended use.
The Army could not support the reported cost of Military Equipment in accordance with
SFFAS No. 6. Also, the Army lacks financial accountability systems for all its Military
Table of Equipment unit property books that comply with FFMIA.

Intragovernmental Eliminations
DoD is unable to collect, exchange, and reconcile buyer and seller intragovernmental
transactions, resulting in adjustments that cannot be verified. This is primarily because
the majority of the systems within DoD do not allow the capture of buyer-side
information for use in reconciliations and eliminations. The DoD and Army accounting
systems were unable to capture trading partner data at the transaction level to facilitate
required trading partner eliminations, and DoD guidance did not require adequate support
for eliminations. In addition, DoD procedures required that buyer-side transaction data
be forced to agree with seller-side transaction data without performing proper
reconciliations.




                                            23 

Inventory
Inventories are valued and reported at approximate historical cost using the latest
acquisition cost, adjusted for holding gains and losses. The systems do not maintain the
historical cost data necessary to comply with SFFAS No. 3, “Accounting for Inventory
and Related Property.” The systems also are unable to produce financial transactions
using the USSGL. SFFAS No. 3 states that Operating Materials and Supplies must be
expensed when the items are consumed. However, significant amounts of Operating
Materials and Supplies were expensed when purchased instead of when they were
consumed.

Reconciliation of Net Cost of Operations to Budget
The SFFAS No. 7, “Accounting for Revenue and Other Financing Sources and Concepts
for Reconciling Budgetary and Financial Accounting,” “requires a reconciliation of
proprietary and budgetary information to assist users in understanding the relationship of
the data.” During FY 2007, the Office of Management and Budget rescinded the
requirement to report this reconciliation as the Statement of Financing and now requires
the disclosure of the information as a note to the financial statements. The Army is
unable to represent accurately the relationship between its budgetary obligations incurred
and its Statement of Net Costs.

Statement of Budgetary Resources
The Army accounting systems do not provide or capture the data needed for obligations
incurred or prior-year obligations recovered in accordance with Office of Management
and Budget Circular No. A-11. Although the Army developed an alternative
methodology to calculate these items, the amount of distortion cannot be reliably
determined.

Statement of Net Cost
The financial information contained in the Statement of Net Cost is not presented by
programs that align with major goals and outputs described in the DoD strategic and
performance plans required by the Government Performance and Results Act. Because
financial processes and systems do not correlate costs with performance measures,
revenues and expenses are reported by appropriation categories. The amounts presented
in the Statement of Net Cost are based on funding, obligation, and disbursing
transactions, which are not always recorded using accrual accounting. Also, the Army
systems do not always record the transaction on an accrual basis as required by U.S.
generally accepted accounting principles. To capture all cost and financing sources for
the Army, the information presented also includes data from nonfinancial feeder systems.
In addition, the AGF budgetary and proprietary information does not correlate.




                                            24 

Appendix D. DoD Reporting Accounts
Not Contained in GFEBS FY 2010 Chart
of Accounts
                                                                               FY 2010
  DoD                                                                        AGF Trial
Reporting                 DoD Reporting Account Title                          Balance
 Account                                                                       Amount
                                                                             (thousands)
            Accounts Receivable – Undistributed Collections-
1310.0910                                                                                  0
            Appropriation Level
            Accounts Receivable – Undistributed Collections – Installation
1310.0940
            Level                                                                $730,044
            Interest Receivable – Loans-Armament Retooling and
1341.8200                                                                              32
            Manufacturing Support (ARMS)
            Allowance for Loss on Interest Receivable – Loans –
1345.8200                                                                              32
            Armament Retooling and Manufacturing Support (ARMS)
            Allowance for Subsidy – Armament Retooling and
1399.8200                                                                             735
            Manufacturing Support (ARMS)
            Investments in U.S. Treasury Securities Issued by the Bureau
1610.0400                                                                           3,167
            of the Public Debt – Non-Marketable Market Based
            Discount on U.S. Treasury Securities Issued by the Bureau of
1611.0400                                                                                  1
            the Public Debt – Non-Marketable Market Based
            Premium on U.S. Treasury Securities Issued by the Bureau of
1612.0400                                                                              93
            the Public Debt – Non-Marketable Market Based
            Amortization of Discount and Premium on U.S. Treasury
1613.0500   Securities Issued by the Bureau of the Public Debt – Non-                  78
            Marketable Market Based-Discount
            Accounts Payable – Undistributed Disbursements –
2110.2100                                                                         942,740
            Appropriation Level
2140.0200   Accrued Interest Payable – Not Otherwise Classified – PPAI              5,995
            Other Post-Employment Benefits Due and Payable –
2215.0100                                                                           7,940
            Unemployment
            Liability for Non-Entity Assets Not Reported on the Statement
2985.0100                                                                       1,779,631
            of Custodial Activity – Disbursing Officer Cash
            Estimated Cleanup Cost Liability – OAEL Active Installations
2995.9521                                                                         240,559
            Non-BRAC – Asbestos
            Estimated Cleanup Cost Liability – Chem Weapons Disposal
2995.9526   Program – CADM Assembled Chemical Weapons Assesment                 5,503,123
            (ACWA)
3400.9000   Fiduciary Net Assets                                                  135,244
3410.9000   Contributions to Fiduciary Net Assets                                 183,498
3420.9000   Withdrawals or Distributions of Fiduciary Net Assets                  198,857
4350.4650   Canceled Authority – Expired Authority                              1,733,805
4350.4800   Canceled Authority – Undelivered Orders                                22,043
4350.4900   Canceled Authority – Delivered Orders                                  10,769
6340.9000   Interest Expense Accrued on the Liability for Loan Guarantees             127

                                           25 

                                                                            FY 2010
  DoD                                                                     AGF Trial
Reporting                        DoD Reporting Account Title                Balance
 Account                                                                    Amount
                                                                          (thousands)
6800.0100       Future Funded Expenses – Annual Leave Liability                764,838
                Employer Contributions to Employee Benefit Programs Not
6850.0800       Requiring Current-Year Budget Authority (Unobligated) –          2,640
                FECA – Military Personnel Benefits
7110.9010       Gains on Disposition of Assets – Other – No BI                 980,396
7190.9010       Other Gains – No BI                                          7,243,188
7210.9010       Losses on Disposition of Assets – Other – No BI              1,121,934
7290.9010       Other Losses – No BI                                         3,513,817
  Total                                                                   $25,125,325*
*The difference is due to rounding.

BI = Budgetary Impact
BRAC = Base Realignment and Closure
CADM = Chemical Agent Munitions Disposal
FECA = Federal Employees’ Compensation Act
OAEL = Other Accrued Environmental Liability
PPAI = Prompt Payment Act Interest




                                               26 

Appendix E. Attributes Reviewed
A description of each of the 20 attributes we reviewed follows.

Advance Flag Code
This attribute indicates that a portion of the appropriation was advanced from a future
year or was made available in a prior year.

Apportionment Category Code
This attribute indicates a distribution made by the Office of Management and Budget of
budgetary resources by calendar quarters or by other specified time periods, programs,
activities, projects, or combinations thereof.

Authority Type Code
This attribute distinguishes among the types of budgetary resources, where it is not
possible to do so by the USSGL Account Number Code.

Availability Time Indicator
This attribute indicates whether a budgetary resource is available for new obligations in
the current period or in a subsequent period within the current fiscal year or after being
reapportioned in a future fiscal year.

Budget Enforcement Act Category Indicator
This attribute indicates whether the Budget Enforcement Act category is mandatory or
discretionary.

Budget Subfunction Code
This attribute indicates the subfunctions used in the classification of data according to
major purpose served (for example, income, security, or national defense).

Covered/Not Covered Code
This attribute code indicates whether liabilities incurred are covered by realized
budgetary resources as of the balance sheet date or are not considered covered by
budgetary resources.

Custodial/Non-Custodial Indicator
This attribute indicates a custodial amount, which is reported on the Statement of
Custodial Activity or the custodial footnote.

Debit/Credit Indicator
This attribute indicates whether the amount reported is debited or credited to the USSGL
account.



                                             27 

Definite/Indefinite Flag Code
This attribute indicates whether the amount of the budget authority is definite (a specified
amount or amount not to exceed the specified amount) or indefinite.

Direct Transfer Account Code
This attribute indicates the Treasury Account Main Code of the other Federal entity
involved in transactions with the reporting entity.

Direct Transfer Agency Code
This attribute indicates the Treasury Department Code of the other Federal entity
involved in transactions with the reporting entity.

Entity/Non-Entity Indicator
This attribute indicates assets that the reporting entity has authority to use in its
operations or not available to the entity.

Exchange/Non-Exchange Indicator
This attribute indicates whether the revenue, gain, or loss balances reported are the result
of an exchange of a good or service.

Federal/Non-Federal Indicator
This attribute indicates the type of entity involved in transactions with the reporting
entity.

Prior-Year Adjustment Code
This attribute indicates when changes are made to obligated or unobligated balances that
occurred in the previous fiscal year but were not recorded in the appropriate Treasury
Appropriation Fund Symbol as of October 1 of the current fiscal year.

Program Report Category Code
This attribute identifies a program report category that agencies use when reporting their
obligations in their detailed financial information.

Reimbursable Flag Indicator
This attribute indicates whether amounts for goods, services, and joint project support are
financed by offsetting collections.

Trading Partner
This attribute indicates the Treasury Department Code of the other Federal entity
involved in transactions with the reporting entity.

Transaction Partner Code
This attribute indicates the type of entity involved in transactions with the reporting entity
(Federal, non-Federal, or exceptions for other non-Federal partners).

                                              28 

Appendix F. Department of the Army
Comments on the Finding
The ASA(FM&C) comments on the finding of the draft report included comments on a
discussion draft of the report. Those comments and our responses are discussed below.

Incomplete Chart of Accounts
ASA(FM&C) Comments
ASA(FM&C) stated that as of September 30, 2011, the GFEBS COA was updated to
include the missing 7 USSGL accounts and 28 DoD reporting accounts and requested
that we delete the recommendation to update the GFEBS COA with the capability to post
to the 28 DoD reporting accounts. She stated that none of the missing general ledger
accounts were required to support the limited transactional processing in the GFEBS user
base as of September 30, 2010. In addition, she indicated that it was not possible for the
Army to fully comply with the USSGL and DoD COA as of September 30, 2010,
because DoD did not formally publish the COA until August 23, 2010.

In addition, ASA(FM&C) stated that the report should not discuss amounts posted in the
aggregated AGF financial statements because the audit scope was GFEBS’ USSGL and
SFIS compliance as of September 30, 2010. She indicated that GFEBS was designed to
meet the requirements of the limited user base on the system in September 2010, not the
entire AGF.

Our Response
In the draft of this report, we acknowledged that ASA(FM&C) personnel added the
28 general ledger accounts to the GFEBS COA. However, ASA(FM&C) personnel
stated they had not updated GFEBS with the capability to post to the added accounts. As
a result, GFEBS did not have the capability for recording transactions in all reporting
accounts required by USSGL and SFIS. Without the posting logic, the Army cannot use
the accounts and the GFEBS COA cannot be USSGL and SFIS compliant.

Although ASA(FM&C) stated that the limited transaction processing in GFEBS required
none of the missing general ledger accounts, ASA(FM&C) personnel indicated that the
GFEBS COA should have included and used 6 of 28 DoD reporting accounts for
FY 2010 reporting. To ensure that GFEBS provides the capability to record all AGF
transactions, the GFEBS COA should have included all accounts reported in the FY 2010
AGF Trial Balance. The report acknowledges that USD(C)/CFO did not update the
DoD COA in a timely manner and recommends that they develop and implement
procedures to streamline the update process. However, 18 of the 28 missing reporting
accounts were contained in the March 2008 DoD COA issued by USD(C)/CFO.




                                            29 

GFEBS is the target accounting system for AGF. The aggregated AGF financial
statement amounts identify the scope of the transactions that GFEBS must be able to
process once fully deployed.

GFEBS Account Definitions
ASA(FM&C) Comments
ASA(FM&C) indicated that, in August 2011, draft documentation existed that described
the purpose and usage of the GFEBS posting accounts and, as of September 2011,
detailed definitions and program documentation existed for 665 of the 847 posting
accounts.

Our Response
In the draft of this report, we stated that ASA(FM&C) personnel provided a draft
document describing the purpose and usage of the GFEBS posting accounts in
August 2011. We updated the report to show that ASA(FM&C) indicated that detailed
definitions and program documentation existed for 665 of the 847 posting accounts.

Inconsistent Attributes
ASA(FM&C) Comments
ASA(FM&C) stated that only four of the missing SFIS elements were required to support
the limited transactional processing in GFEBS as of September 30, 2010. In addition, she
indicated that, as of September 30, 2011, GFEBS had corrected the logic to consistently
enter the values for three of the eight SFIS attributes in the Z1 ledger, and that the Army
could not correct the remaining five attributes until DoD agreed on the derivation logic
for those attributes.

Our Response
Our review determined whether GFEBS entered required USSGL attributes, and their
equivalent SFIS attributes, at the transaction level. USSGL defined which attributes are
required by general ledger account; not by type of transaction. Therefore, limited
transactional processing in GFEBS would not change which attributes GFEBS was
required to enter.

DCMO performed an SFIS compliance review that determined compliance with SFIS
business rules and only performed limited transaction testing. Our review determined
whether GFEBS was posting the required USSGL and SFIS attribute information at the
transaction level.

The results of the DCMO review on FY 2011 GFEBS data identified business rule
compliance issues related to five of the attributes discussed in the report. We will
determine whether the Army has corrected the posting logic for the eight SFIS attributes
during our future reviews of the GFEBS end-to-end business processes.


                                            30 

Army Oversight
ASA(FM&C) Comments
ASA(FM&C) disagreed with the statement that the Army did not provide adequate
oversight to ensure GFEBS complied with USSGL and SFIS criteria. She indicated that,
as of March 2011, DoD and the Army had established procedures to review ERP systems
for SFIS compliance. ASA(FM&C) stated that the results of the DoD and Army review
of GFEBS, conducted in June 2011, concluded that GFEBS was 92-percent compliant
with DoD SFIS business rules and the Army had a plan to achieve full compliance by
February 2012.

Our Response
ASA(FM&C) personnel are responsible for providing timely, accurate, and reliable
financial information to enable leaders and managers to incorporate cost considerations
into their decisionmaking. ASA(FM&C) personnel were not aware that GFEBS was not
consistently populating all required attribute values at the transaction level until
March 2011 when briefed on the results of the audit. In addition, 18 of the 28 missing
reporting accounts were contained in the March 2008 DoD COA issued by USD(C)/CFO.
If ASA(FM&C) personnel had provided adequate oversight, they would have established
procedures to ensure that the GFEBS PMO updated the GFEBS COA in a timely manner,
documented the purpose and usage of the accounts, and ensured that the system
consistently entered the required attributes before the audit.

Audit Conclusions
ASA(FM&C) Comments
ASA(FM&C) disagreed with the report’s assertion that GFEBS did not provide required
financial information. She also disagreed with the conclusion that GFEBS did not
maintain accurate, reliable, and complete financial information. She indicated that the
audit was limited to determining GFEBS compliance with SFIS and USSGL elements as
of September 30, 2010, and did not examine the correctness of transactional data
processed or test the accuracy and completeness of financial information.

ASA(FM&C) indicated that since the Army had not fully deployed GFEBS as of
September 30, 2010, and was processing less than 2 percent of the AGF obligation
authority, the missing general ledger accounts and other data elements had little impact
on the reliability of financial information GFEBS provided. She also stated that the
absence of the 7 USSGL and 28 DoD reporting accounts did not materially impact
GFEBS’ ability to provide accurate financial information because GFEBS activity as of
September 30, 2010, did not require the accounts. In addition, ASA(FM&C) requested
that we delete the recommendation to stop further deployment of the system until the
system consistently enters all required attributes at the transaction level.




                                           31 

Finally, ASA(FM&C) stated that our conclusion that GFEBS might not resolve the
Financial Management System and Intragovernmental Eliminations material weaknesses
was “pure speculation” given the limited audit scope.

Our Response
FFMIA required agencies to implement and maintain financial management systems that
are in substantial compliance with:

   •   Federal financial management systems requirements,
   •   Federal accounting standards, and
   •   USSGL at the transaction level.

USSGL guidance states that agencies’ systems must capture financial information at the
transaction level by recording transactions using the USSGL four-digit account plus
attributes. The Army must capture the four-digit USSGL account plus applicable
attribute values at the transaction level to comply with USSGL and SFIS guidance.
USSGL and SFIS attributes are required financial information. Without accurate and
complete attribute information at the transaction level, the Army cannot comply with the
FFMIA requirement to develop a USSGL-compliant financial system. GFEBS, as the
AGF target accounting system, should include all the DoD reporting accounts and
attributes necessary to record AGF financial transactions in accordance with USSGL and
SFIS guidance.

The Army developed GFEBS to improve the timeliness and reliability of financial
information and obtain a clean audit opinion. GFEBS is due for full deployment July
2012, but as of September 30, 2010, was not meeting its objectives to improve the
reliability of financial information and for the Army to obtain a clean audit opinion.
Until the Army increases oversight and develops procedures to remedy the compliance
issues discussed in this report and prevent their reoccurrence, DoD may not be able to
achieve the basic goals and objectives in the Financial Improvement and Audit Readiness
Plan. In addition, DoD may not meet the September 30, 2017, audit readiness validation
date. Therefore, ASA(FM&C) should not deploy GFEBS to additional users until
GFEBS consistently enters all required attributes at the transaction level.

Our conclusion that GFEBS might not resolve the Financial Management System and
Intragovernmental Eliminations material weaknesses was based on the results of our
review. The Financial Management System material weakness states that the Army
needs to upgrade or replace many of its nonfinancial feeder systems so it can meet
financial statement reporting requirements. Without the capability to enter all the
required USSGL attribute information and post to all the required USSGL accounts at the
transaction level, GFEBS will not be able to meet the FFMIA reporting requirements. In
addition, transactions with another Federal entity must contain trading partner
information. However, GFEBS reported $48.7 billion to the FY 2010 DoD
Agency-Wide Financial Statements without identifying the trading partner. The Army
must capture the trading partner information at the transaction level to ensure it reports
the required information for Intragovernmental Eliminations.

                                           32 

Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD, Comments




                             OFFICE OF TH E UNDER SECRETARY OF DEFENSE
                                              1100 DEF E N S E P E NTAGON
                                             WASHINGTON, D C 2 0 301 - 1 100




     CO M ~L L I!:R                                                                    JAN 1 2 2011
           MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL, FINANCIAL
                            MANAGEMENT AND REPORTING, DEPARTMENT OF
                            DEFENSE OFFICE OF THE INSPECTOR GENERAL

           SUBJECT: Response to Otlice of the lnspector General (OIG) Draft Report, "General Fund
                         Enterprise Bu<;iness System Did Not Provide Required Financial [nfannation"
                         (Pmject No. D20JO-DOOOFL-0204.000)

                 The subject Department of Defense (DoD) Office of the Inspector General draft audit
           report addressed two recommendations to the DoD Under Secretary of Defense (Comptroller)!
           Chief Financial Officer. Management responses to Recommendations 1 and 2 of the report are
           anached to this memorandum.


          I •••iil:c"~;'~:,~
                                                                       She may be reached by phone at
                             in this matter
                     by email at . . . . . .




           Attachment:
           As stated




                                                                      33
                 DoD OIG DRAFT REPORT-DATED DECEMBER 14,201 I 

                         PROJECT NO. D20 10-DOOOFL-0204.000 


 "GENERAL FUND ENTERPRISE BUSINESS SYSTEM DOD NOT PROVIDE REQUIRED
                      FINANCIAL INFORMATION"

         OFFICE OF THE UNDER SECRETARY OF DEFENSE (COMPTROLLER)
           (OUSD(C)) RESPONSE TO THE DoD OIG RECOMMENDATIONS

RECOMM ENDATION I: "We recommend that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, 000, in conjunction with the Deputy Chief Management
Officer, incorporate the Prior·Year Adjustment Code attribute into the Standard Financial
Infonnation Structure guidance."

RESPONSE: CONCUR. The Prior·Year Adjustment Code will be included in the next release
of ihe Business Enterprise Architecture (B EA) 9.0 scheduled for April 2012.


RECOMMENDATION 2: "We recommend that the Under Secretary of Defense
(Cornptroller)/Chief Financial OffIcer, DoD, develop and implement procedures to streamline
the processes for updating the DoD Chart of Accounts."

RESPONSE: PARTIALLY CONCUR. Several updates wen:: inwrporated into the DoD Chart
                            Click to add JPEG file
of Accounts (COA) update process over the past year. While it is the mission of the Office of
the Under Secretary of Defense (Comptroller) (OUSD(C» to pro\-ide updates to the accounting
and reporting entities within DoD on a timely basis, it is imperative to ensure the accuracy and
consistency of this guidance. In Fiscal Year (FY) 2011, OUSD(C) worked with the Defense
Finance and Accowlting Service, the Defense Departmental Reporting System Program
Management Office, and the Reporting Entities to eliminate ulUlccessary accounts, update
inconsistent guidance, and add new accounts. This massive effort delayed the release of the
DoD COA in 2010. In this process, roughly 15 percent of the DoD COA was updated, including
the deletion of 55 legacy accounts and posting guidance clarification of 82 accounts.

However, it is also imperative to note that DoD COA is also tied to and aligned with updates o f
the United States Standard General Ledger (USSGL) issued by the Department of the Treasury.
Annual updates for fourth quarter reporting and updates related to the subsequent fiscal year are
nonnally issued in late June, with corrections and clnrifications regularly issued in August and
often later in the new fiscal year (e.g., a FY 2012 update was issued in December 2011, with an
effel:tivc datc of Ol:luber 201 t) .

Throughout the fiscal year, the Department's USSGL Representative to the USSGL Board works
closely with Treasury staff to obtain the most accurate and up.to-date infonnation. In the
consideration of tough economic times and the costs associated with Enterprise Resource
Planning implementation across the DoD, it is not deemed practicable to release updates of the
DoD COA when additional Treasury corrections and clarifications are expected. The utmost
effort will be made to release DoD COA updates as quickly as possible.



                                                                                      Attachment




                                                           34
Deputy Chief Management Officer Comments






                              DEPUTY C HI EF MANAGEMENT OFFICER
                                          90 10 DEFENSE PENTAGON
                                         WASH INGTON , DC 20301 ·9010




      MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL (FINANCIAL
                       MANAGEMENT AND REI'ORTING)

      SUBJECT: Comments 10 Draft Audit Report, "General fund Enterprise Business System Did Not
                    Provide Required Financiallnfonnalion" (Projeci No. D201 0-DOOOFL-0204.000)

              This memorandum respo nds to your request for comments on one audit recommendation
      contai ned in the draft audit report issued December 14,2011. We concur with the
      recommendation contained in the subject draft audit report. Ou r detailed response to the
      recommendation is provided in the attachment.

                                   . the point oriciioiini,uiici' ifoiir.'hiiiis.reiisiiPioinsje. He can be reached by
                                    by email at                               I



                                    Click to ~
                                             add JPEG file
                                                        Eli zabeth A. McGrath


      Attachment:
      As stated




                                                                            35
  DEPARTMENT OF DEFENSE OFFICE OF THE INSPECTOR GENERAL (DoDlG)
   DRAFT REPORT DATED DECEMBER 14, 2011, PROJECT NO. DZ010-DOOOFL­
                             0204.000
 "GENERAL FUND ENTERPRISE BUSINESS SYSTEM (GFEBS) DID NOT PROVIDE
                REQUIRED FINANCIAL INFORMATION"

        OFFICE OF THE DEPUTY CWEF MANAGEMENT OFFICER (DCMO)
                 COMMENTS TO DODIG RECOMMENDATION

RECOMMENDATION 1: "We recommend that the Under Secretary of Defense
(ComptroUer/ChiefFinancial Officer (USD(C)/CFO), DoD, in coordination with the Deputy
Chief Management Officer, incorporate the Prior-Year Adjustment Code attribute into the
Standard Financial Information Structure (SF[S) guidance."

DeMO RESPONSE: Concur. The Prior-Year Adjustment Code will be included in the next
release of the Business Enterprise Architecture (BEA) 9.0 scheduled for April 20[2.

GENERAL COMMENTS: Overall, as part of the DCMOIUSD(C) SF[S Validation, GFEBS is
currently compliant with 93% of the SFIS business rules. In addition, GFEBS bas one of the
higher percentages for systems of this magnitude that have been validated to date. Further, the
GFEBS Program Management Office has been receptive to all recommendations made by the
                            Click to add JPEG file
DCMOIUSD(C) concerning its configuration.




-
                                                          36
Department of the Army Comments






                                     DEPARTMENT OF THE ARMY
                               OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY
                                  FINANCIAL MANAGEMENT AND COMPTROLLER
                                             109 ARMY PENTAGON
                                         WASHINGTON DC 20310-.0109



                                                                       JAN 12 2Ol?

      MEMORANDUM FOR Assistant Inspector General for Audit, Department 01 Defense
      Inspector General, 400 Army Navy Drive, Arlington, VA 22202

      SUBJECT: Army Response 10 Draft Report Project No. D2010-DOOOFL-Q204.000,
      General Fund Enterprise Business System (GFEBS) Did Not Provide Required
      Financial Information


      1. Thank you for the opportunity to review the draft report. We disagree with the
      reports assertion that GFEBS did not provide required financial information and with the
      recommendation to discontinue GFEBS deployments until stated issues have been
      resolved. Enclosure-A provides detai led responses to the reporfs recommendations.

      2. The audit was simply designed to determine if GFE8S contained required general
      ledger (GL) and Standard Flnanciallnlonnation Structure (SFIS) elements and did not
      examine the correctness of transactional data processed. At September 30,201 none     °
                                  Click to add JPEG file
      of the missing GL accounts and only four of the missing SFIS elements were required to
      support the limited transactional processing in GFEBS. At that time, GFEBS was not
      fully deployed and was processing less than two peraent of the Armys entire general
      fund obligation authority. Consequently, the missing ledger accounts and other data
      elements the report cites had little impact on reliability of financial information provided
      by GFEBS. My November 17, 2011 response to your discussion draft at enclosure-B
      provides additional details.

      3. My                                                                      reached by
      e-mail



                                                 ~~(~~
      Encl                                           Dr. Mary Sally Matiella, CPA




                                                                37
                            Enclosure: Official Comments 

    Gen eral Fund Enterprise Business System Did Not Provide Required Financial 

                                     Information 

                        Project No. D201 0-DOOOFL-0204.000

Recommendation.

3. We recommend that th e Assistant Secretary of the Army (Finan cial Ma nagement
and Comptroller):

   a. Update the GFEBS Chart of Accounts with the capability to pest to the 28 DoD
      reporting accounts identilied in the report.

      Completed. The 28 general ledger (GL) reporting accounts we re added to the
      GFEBS COA in February 20t t.

   b. 	 Update their procedures 10 document and maintain account definrtions in the
      General Fund Enterprise Business System program documentation.

      Concur. Updated the chart ot account procedure in August 2011 to address
      updating and maintaining GL accounts and will update the definitions portion of
      the procedure as part of ongoing actions to develop comprehensive GL
                             Click to add JPEG file
      documentation. Expected date of completion is June 2012.

   c. 	 Periodically review and validate the financial data to ensure that the GenerClI
      Fund Enterprise Business System enters all required attributes at the transaction
      level.

      Concur. Began review of GFEBS SFIS attributes in May 2011. Performed a 100
      percent rev iew of the FACTS I & II retated SFIS Attributes in December 2011 and
      submitted corrections to the GFEBS PMO. Once th e co rrections are completed ,
      will verify the accu racy of all correction s; and will add steps to ensure financial
      data is reviewed when SFIS attributes change. Expected date of completion is
      March 20 12.

   d. 	 Discontinue deployment of the General Fund Enterprise Business System to
        addi tion al users until the system consistently enters all req uired attributes at the
        transaction level.

      Nonconcur. The audit was based on data processed in GFEBS as of
      September 30.2010. At that time GFEBS was not fully deployed or fully
      developed, was transacting less than two percent of the Army' s obligation
      activity. to include only 25 of 249 appropriation accounts, and was not configured
      to meet Treasu ry reporting requirements. Consequently, the missing ledger
      accounts and othor data elements the report cites had little impact on the
      reliability of financial information provided by GFEBS.




                                                           38
                                DEPARTMENT OF THE ARMY
                                ASSISTANT SECRETMV OFTliE ARMY
                            FINANCIAL MANAGEMENT AND COMP'mOU..ER
                                       109 ARUY PENTAGON
                                    WASHINGTON DC 20310-0109


                                            NOV ) 7 1011

MEMORANDUM FOR Assistant Inspector General for Audit. Department of Defense
Inspector General, 400 Army Navy Drive, Arlington, VA 22202

SUBJECT: Reply to Discussion Draft of a Proposed Report, The Genera! Fund
Enterprise Business System Did Not Provide Reliable Financial Information -- Project
No, D2010-DOOOFL-G204,000


1., Thank you for the opportunity to review th e discussion draft of the audit of the
Gen eral Fund Enterprise Business System's (GFEBS) compl iance with the United
States Standard General Ledger (USSGL) and Department of Defense (DoD) Standard
Financial Information Structure (SFIS) (Projec1 No. D2010-DOOOFL-2-4.000). Based on
our review, and additional discussions with your audit staff, we recommend the following
changes:

   a. 	 Change the audit ti11e to "The General Fund Enterprise Business System Did Not
                           Click to add JPEG file
        Include all SFIS and USSGL elements as of September 30, 2010," This title is
        appropriate to the actual audit scope, findings and recommendations.

   b. 	 Results In brief should indicate:

          (1) As of September 30, 2011, the GFEBS chart of accounts (COA) was
          updated to include the missing 7 USSGL aceounls and 28 DoD reporting
          accounts.

          (2) The absence of these accounts in the GFEBS baseline did not materially
          impact GFEBS' ability to pro vide accurate financial information sin ce they
          were not required for GFEBS activity as of September 30,2010.

          (3) As of f\Aarch 2011. the DoD and Army established procedures to review
          Enterprise Resource Planning (ERP) systems for SFIS compliance, and the
          results of the GFEBS SFIS compliance review conducted in June 2011
          concluded that GFEBS is 92 percent compliant with 000 SFIS business rules
          and has a plan to achieve full cOrl1'liancc by February 2012.

          (4) As of September 30,2011 GFEBS corrected the logic to consistently
          populate the values for three of the eight SAS attributes jn the Z11edger, and
          that the remaining tive attributes cannot be corrected until DoD can agree on
          the derivation logic for those attributes.




                                                           39
SUBJECT: Reply to Discussion Draft of a Proposed Report, The General Fund
Enterprise Business System Did Not Provide Reliable Financial Information- -- Project
No. D2010-DOOOFL-0204.000

             (5) As of August 2011, draft documentalion existed that described tho
             purpose and usage of the GFEBS posting accounts. At September 30, 2011
             detailed definitions and program documentation tJx:isted for 665 of the 847
             posting accounts.

   C. 	   Delete all references indicating GFEBS did not maintain accurate, reliable and
          complete financial information. The audit was limited to determining compliance
          with SFIS and USSGL elements as of September 30, 2010 and did nol test the
          accuracy and completeness of financial information.

   d. Replace all references to amounts posted in the aggregated Army general fu nd
      financial statements with those posted in the GFEBS trial balance. The audit
      scope was GFEBS' SFIS and USSGL compliance as of September 30,2010, not
      the entire Army general fund. At September 30.2010 GFEBS was deployed to
      an extremely narrow user base accounting for 1.9 percent of the Army's general
          fund total obligation authorily. The system was desIgned to meet the
          requirements of this user base, not the entire Anny general fund.

   e. 	 The                  Click to add JPEG file
              audit should indicate that none of the 7 missing USSGl accounts, none of
          the 28 missing reporting accounts, and only four of the missing SFIS elements
          were required to support the user base at September 30, 2010.

   f. 	 Delete statements indicating Army did not provide adequate oversight to ensure
          GFEBS co mplied with USSGL and SFIS criteria. The audit should indicate it was
          not possible for the Army to fully comply with the USSGL and DoD COA as of
          September 30, 2010 since DoD did not formally publish the COA until August 23,
          2010.

   g. 	 Delete statements indicating GFEBS may not resolve financial system and inter­
        governmental eliminations material weaknesses. This is pure speculation on the
        part of the auditors given the limited audit scope.

   h. 	 Delete recommendation-1. This recommendation contradicts guidance provtded
        by the Office of Management and Budget (OMB) regarding the incremental
        development and deployment of information technology systems.

   I. 	 Delete recommendation-4a. The GFEBS eOA was updated as of February 18,
          2011 to include the 28 000 reporting accounts.




                                                           40
SUBJECT: Reply to Discussion Draft of a Proposed Report, The General Fund
Enterprise Business System Did Not Provide Reliable Financial Information -- Project
No. D2010-DOOOFL-0204.000
                                            a more accurate report of audit findings
                                             and results. Please feel free to contact
                                          should you have further questions.




CF:
Under Secretary of Defense, Deputy Chief Management Officer
Under Secretary of Defense, Comptroller/Chief Financial Officer




                          Click to add JPEG file




                                                      41
